0

BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Petition for a Writ of Certiorari in Dean
Hotop, et al., v. City of San Jose, was sent via Next Day
Service to the U.S. Supreme Court, and 3 copies were
sent via e-mail and Next Day service to the following
parties listed below, this 14th day of June, 2021:
Ardell Johnson
Malgorzata Laskowska
San Jose City Attorney's Office
16th Floor
200 E. Santa Clara Street
San Jose, CA 95113-1905
(408) 535-1900
cao.main@sanjoseca.gov

Counsel for Respondent
Frank A. Weiser
Counsel of Record
3460 Wilshire Blvd.,
Suite 1212
Los Angeles, CA 90010
(213) 384-6964
maimons@aol.com

Counsel for Petitioner

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on June 14, 2021.

~ ~

Emil~ ullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

/1.c1_

/1 /J I

(p 1 'f

Notary Public
[seal]

AMY TRIPLETT MORGAN
Attorney at Law

